 Department of Health and Human Services
              OFFICE OF
         INSPECTOR GENERAL




  CDC’S ETHICS PROGRAM FOR
SPECIAL GOVERNMENT EMPLOYEES
     ON FEDERAL ADVISORY
         COMMITTEES




                     Daniel R. Levinson
                      Inspector General

                       December 2009
                      OEI-04-07-00260
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
      E X E C U T I V E                        S U M M A R Y


                  OBJECTIVE
                  To determine the extent to which the Centers for Disease Control and
                  Prevention (CDC) and its special Government employees (SGE) on
                  Federal advisory committees (committees) complied with ethics
                  requirements.


                  BACKGROUND
                  Committees play an influential role in decisionmaking for the Federal
                  Government. Committee members (i.e., SGEs) are typically involved in
                  work outside the Federal Government in the same areas as their
                  committees’ work. To protect the committees’ integrity and credibility,
                  agencies must not permit SGEs with conflicts of interest to
                  inappropriately influence their committees’ work.

                  At CDC, committees address important public health topics. For
                  example, in 2007, one committee recommended the routine vaccination of
                  young females in the United States to prevent cervical cancer. In 2009,
                  this same committee recommended that H1N1 influenza vaccination
                  efforts focus on five target groups in the United States.

                  CDC must obtain from SGEs Confidential Financial Disclosure Reports,
                  Office of Government Ethics (OGE) Forms 450, containing information
                  such as the SGEs’ assets, sources of income, and non-income-earning
                  activities. Before permitting SGEs to participate in committee meetings,
                  CDC must review these forms and certify them to indicate that they are
                  complete and that it has identified and resolved all conflicts of interest.
                  CDC must create ethics agreements (e.g., waivers) to resolve SGEs’
                  conflicts of interest. CDC collaborates with the Department of Health and
                  Human Services’ (HHS) Office of the General Counsel to identify and
                  resolve conflicts of interest.

                  CDC must also provide initial and annual ethics training to SGEs within
                  required timeframes and obtain ethics training certificates from SGEs to
                  document that they received the training. Finally, CDC must monitor
                  SGEs’ compliance with ethics requirements during committee meetings.
                  That is, SGEs must not participate in committee work during committee
                  meetings without current, certified OGE Forms 450 or participate in
                  committee work related to particular matters if their waivers prohibit
                  such participation.

                  We reviewed financial disclosure files (e.g., current, certified OGE
                  Forms 450 and ethics agreements) for 246 SGEs on 17 CDC committees in

OEI-04-07-00260   CDC’S ETHICS PROGRAM   FOR   SPECIAL GOVERNMENT EMPLOYEES   ON   FEDERAL   i
                  ADVISORY COMMITTEES
 E X E C U T I V E                S U          M M A R Y

                  2007. We determined whether SGEs’ OGE Forms 450 were complete
                  after CDC certified them. Then, we determined whether CDC identified
                  potential conflicts of interest that we identified. We also determined the
                  extent to which CDC created ethics agreements and adequately
                  documented them to resolve potential conflicts of interest. Further, we
                  determined whether CDC ensured that SGEs’ financial disclosure files
                  contained ethics training certificates to document that SGEs received
                  ethics training within required timeframes. Finally, we determined
                  whether SGEs complied with ethics requirements during committee
                  meetings.


                  FINDINGS
                  For almost all special Government employees, CDC did not ensure
                  that financial disclosure forms were complete in 2007. CDC certified
                  OGE Forms 450 with at least one omission in 2007 for 97 percent of
                  SGEs. Most of the forms had more than one type of omission.
                  CDC did not identify or resolve potential conflicts of interest for
                  64 percent of special Government employees in 2007. Sixty-four
                  percent of SGEs had potential conflicts of interest in 2007 that CDC did
                  not identify and/or resolve before it certified their OGE Forms 450.
                  Specifically, 58 percent of SGEs had potential conflicts of interest that
                  CDC did not identify. In addition, 32 percent of SGEs had potential
                  conflicts of interest that CDC identified but did not resolve. Twenty-six
                  percent of SGEs had both CDC-unidentified and unresolved potential
                  conflicts of interest.
                  CDC did not ensure that 41 percent of special Government employees
                  received required ethics training in 2007. CDC did not ensure that
                  41 percent of SGEs had ethics training certificates on file to document
                  that SGEs received initial or annual ethics training within required
                  timeframes in 2007.
                  Fifteen percent of special Government employees did not comply with
                  ethics requirements during committee meetings in 2007. Fifteen
                  percent of SGEs did not comply with ethics requirements during
                  committee meetings in 2007. Specifically, 13 percent of SGEs participated
                  in committee meetings in 2007 without having current, certified
                  OGE Forms 450 on file. In addition, 3 percent of SGEs voted on
                  particular matters when their waivers prohibited such participation.
                  Four SGEs both participated in committee meetings without current,
                  certified OGE Forms 450 on file and voted on particular matters when
                  their waivers prohibited such participation.


OEI-04-07-00260   CDC’S ETHICS PROGRAM   FOR   SPECIAL GOVERNMENT EMPLOYEES   ON   FEDERAL   ii
                  ADVISORY COMMITTEES
 E X E C U T I V E                S U          M M A R Y


                  RECOMMENDATIONS
                  We found that CDC had a systemic lack of oversight of the ethics program
                  for SGEs. That is, CDC and its SGEs did not comply with ethics
                  requirements in 2007.

                  To address our findings, we recommend that CDC:
                  Ensure that special Government employees’ Confidential Financial
                  Disclosure Reports are complete before certifying them.
                  Require special Government employees to disclose their involvement
                  in grants and other relevant interests that could pose conflicts but
                  that are not disclosed on the Confidential Financial Disclosure Report.
                  Identify and resolve all conflicts of interest for special Government
                  employees before permitting them to participate in committee
                  meetings.
                  Increase collaboration among CDC officials and with the HHS Office
                  of the General Counsel.
                  Ensure that special Government employees and CDC employees
                  receive ethics training.
                  Monitor special Government employee compliance with ethics
                  requirements during committee meetings.
                  Track special Government employee compliance with ethics
                  requirements.


                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  CDC concurred with all seven of our recommendations. Since the time of
                  our review, CDC indicated that it has begun or plans to implement
                  improvements that coincide with our recommendations.

                  We made technical changes to the report based on CDC’s comments.




OEI-04-07-00260   CDC’S ETHICS PROGRAM   FOR   SPECIAL GOVERNMENT EMPLOYEES   ON   FEDERAL   iii
                  ADVISORY COMMITTEES
   T A B L E         O F            C O N T E N T S

          EXECUTIVE SUMMARY .................................... i


          INTRODUCTION............................................ 1


          F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
                     For almost all special Government employees, CDC did not
                     ensure that financial disclosure forms were complete in 2007 . . . 16

                     CDC did not identify or resolve potential conflicts of interest
                     for 64 percent of special Government employees in 2007. . . . . . . . 16

                     CDC did not ensure that 41 percent of special Government
                     employees received required ethics training in 2007 . . . . . . . . . . . 21

                     Fifteen percent of special Government employees did not comply
                     with ethics requirements during committee meetings in 2007 . . . 21


          R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
                     Agency Comments and Office of Inspector General Response . . . . 28


          A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30
                     A: Federal Advisory Committees at the Centers for Disease
                        Control and Prevention, as of December 31, 2007 . . . . . . . . . . 30

                     B: Detailed Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32

                     C: Office of Government Ethics Guidance for Determining
                        Whether 2007 Confidential Financial Disclosure Reports
                        Are Complete . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 38

                     D: Details Regarding Number and Percentage of Certified
                        2007 Confidential Financial Disclosure Reports That Were
                        Incomplete, by Type of Omission . . . . . . . . . . . . . . . . . . . . . . . 40

                     E: Average and Range in Committee Meetings in Which
                        Special Government Employees Participated in 2007 After
                        Their Forms Were Certified, by Type of Vulnerability in
                        Their Files . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 41

                     F: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 42



          A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 47
I N T R O D        U C T      I O N
    I N T R O D U C T I O N


                    OBJECTIVE
                    To determine the extent to which the Centers for Disease Control and
                    Prevention (CDC) and its special Government employees (SGE) on
                    Federal advisory committees (committees) complied with ethics
                    requirements.


                    BACKGROUND
                    Committees provide “expert advice, ideas, and diverse opinions” to the
                    Federal Government and play an influential role in public policy and
                    decisionmaking. 1, 2 To protect the committees’ integrity and credibility,
                    Federal agencies must not permit committee members with conflicts of
                    interest to inappropriately influence their committees’ work. 3, 4 OGE
                    issues regulations regarding conflicts of interest and oversees Federal
                    agencies’ ethics programs. 5
                    SGEs are voting committee members who are temporary employees of
                    the Federal Government. 6 SGEs are subject matter experts and
                    typically are actively involved in work outside the Government in the
                    same areas as their committees’ work. 7 Therefore, SGEs may have

                      1 Federal Advisory Committee Act, 5 U.S.C. app. II §§ 2(a) and 3(2)(c)(i).
                      2 Office of Government Ethics (OGE) Memorandum to Designated Agency Ethics
                    Officials, “Federal Advisory Committee Appointments.” DO-05-012, August 18, 2005.
                    Available online at
                    http://www.usoge.gov/ethics_guidance/daeograms/dgr_files/2005/do05012.pdf. Accessed on
                    July 10, 2009.
                      3 In this report, we will use the term “committee work” to include preliminary
                    discussions, interim evaluations, votes, and final recommendations.
                      4 In this report, we will use the term “conflict of interest” to refer to interests covered by
                    the criminal conflict-of-interest statute (18 U.S.C. § 208) and/or the Standards of Ethical
                    Conduct for Employees of the Executive Branch (5 CFR § 2635).
                      5 Ethics in Government Act, 5 U.S.C. app. IV §§ 401 and 402, 5 CFR pt. 2600.
                      6 SGEs may serve in many roles in the Federal Government. 18 U.S.C. § 202(a). In this
                    report, we will use the term “SGE” to refer only to SGEs on committees at CDC. In the
                    Department of Health and Human Services (HHS), most committee members are appointed
                    as SGEs. HHS, Office of the General Counsel Ethics Division. “Ethics Rules for Advisory
                    Committee Members and Other Individuals Appointed as Special Government Employees
                    (SGE),” p. 1, October 2004. SGEs may serve multiyear terms on committees but may not
                    serve in excess of 130 days during any 365-day period. 18 U.S.C. § 202(a).
                      7 OGE, “Conflict of Interest and the Special Government Employee: A Summary of
                    Ethical Requirements Applicable to SGEs.” Attachment to the OGE Memorandum to
                    Designated Agency Ethics Officials, DO-00-003, February 15, 2000. Available online at
                    http://www.usoge.gov/laws_regs/other_ethics_guidance/othr_gdnc/og_sge_coi_00.pdf.
                    Accessed on July 10, 2008.



 OEI-04-07-00260    CDC’S ETHICS PROGRAM   FOR   SPECIAL GOVERNMENT EMPLOYEES   ON   FEDERAL                           1
                    ADVISORY COMMITTEES
I N T R O D        U C T       I O N


                    financial interests that conflict with their official duties as committee
                    members.

                    At CDC, committees address important public health topics, such as
                    breast and cervical cancer, immunization, smoking, tuberculosis, and
                    clinical laboratory improvement. For example, in 2007, one committee
                    recommended the routine vaccination of young females in the United
                    States to prevent cervical cancer. 8 In 2009, this same committee
                    recommended that H1N1 influenza vaccination efforts focus on five
                    target groups in the United States. 9
                    On December 31, 2007, 259 SGEs were serving on 17 CDC committees.
                    The President, Congress, or the HHS Secretary may appoint SGEs to
                    these committees. See Appendix A for a list of the 17 committees.
                    CDC’s Ethics Program for Special Government Employees
                    CDC’s Management Analysis and Services Office (MASO) is responsible
                    for managing CDC’s ethics program for SGEs. 10 MASO coordinates
                    with each committee’s Designated Federal Official to ensure that SGEs
                    comply with Federal ethics statutes and regulations, as well as CDC
                    policy. Hereinafter, we refer to Federal ethics statutes and regulations
                    and CDC policy as “ethics requirements.”



                      8 CDC, Morbidity and Mortality Weekly Report, “Quadrivalent Human Papillomavirus
                    Vaccine: Recommendations of the Advisory Committee on Immunization Practices.”
                    March 23, 2007. Available online at
                    http://www.cdc.gov/mmwr/preview/mmwrhtml/rr5602a1.htm?s_cid=rr5602a1_e. Accessed
                    on September 9, 2009.
                      9 CDC, Morbidity and Mortality Weekly Report. “Use of Influenza A (H1N1) 2009
                    Monovalent Vaccine: Recommendations of the Advisory Committee on Immunization
                    Practices.” August 28, 2009. Available online at
                    http://www.cdc.gov/mmwr/preview/mmwrhtml/rr5810a1.htm?s_cid=rr5810a1_e. Accessed
                    on September 9, 2009.
                       10 OGE requires each Department to assign a Designated Agency Ethics Official to
                    establish, maintain, and carry out the Department’s various ethics programs.
                    5 CFR § 2638.201. The HHS Designated Agency Ethics Official has delegated daily
                    responsibility for administering HHS’s ethics programs to Deputy Ethics Counselors in each
                    operating division. HHS Office of the General Counsel Ethics Division, “Deputy Ethics
                    Counselor HHS Ethics Program Statement of Functions, Responsibilities, and Authority,”
                    revised August 15, 2007. HHS Office of the General Counsel, Ethics Division, Designated
                    Agency Ethics Official, “DAEO Supplemental Instruction No. 06-2,” December 14, 2006.
                    CDC’s Deputy Ethics Counselor has further delegated certain aspects of the administration
                    of CDC’s SGE ethics program to the Director of MASO. CDC Policy, CDC-GA-2001-05
                    (formerly CDC-94), “Financial Disclosure for Federal Advisory Committee Members
                    Appointed as Special Government Employees,” July 5, 2001. Available online at
                    http://www.cdc.gov/maso/FACM/pdfs/policy294.pdf. Accessed on July 10, 2009.



 OEI-04-07-00260    CDC’S ETHICS PROGRAM   FOR   SPECIAL GOVERNMENT EMPLOYEES   ON   FEDERAL                2
                    ADVISORY COMMITTEES
I N T R O D       U C T        I O N

                  The Designated Federal Official is not a committee member, but a CDC
                  employee who serves as the committee’s Executive Secretary, attends
                  each meeting, and manages the committee’s day-to-day operations. 11, 12
                  CDC (i.e., MASO and Designated Federal Officials) is responsible for:

                  1. ensuring that Confidential Financial Disclosure Reports
                     (OGE Forms 450) are complete,

                  2. identifying and resolving SGEs’ conflicts of interest,

                  3. providing and documenting initial and annual ethics training to
                     SGEs, and

                  4. monitoring SGEs’ compliance with ethics requirements during
                     committee meetings. 13
                  The ethics program is based on a confidential financial reporting
                  system. This system enables CDC to identify SGEs’ conflicts of interest
                  and assists them in avoiding conflicts between their official duties and
                  financial interests or affiliations. 14 SGEs must submit OGE Forms 450
                  to CDC, on which they disclose all financial interests and positions held
                  in the previous 12 months. 15, 16
                  SGEs must complete four sections of the form:

                       Part I - Assets and Income

                       Part II - Liabilities

                    11 Federal Advisory Committee Act, 5 U.S.C. app. II § 10(e). CDC Policy,
                  CDC-GA-2001-05, loc. cit.
                    12 At CDC, the Designated Federal Official’s primary employment responsibilities exist
                  outside the committee. This official is usually employed in a CDC program related to
                  particular matters addressed by the committee.
                      13 CDC Policy, CDC-GA-2001-05, loc. cit.
                      14 OGE, OGE Form 450: A Review Guide, September 1996, pp. 26 and 27. Available
                  online at http://www.usoge.gov/forms/oge450_pdf/rf450guide_96.pdf. Accessed on July 10,
                  2009.
                    15 OGE, Memorandum to Designated Agency Ethics Officials, DO-03-021. Financial
                  Disclosure Reporting Requirements for Special Government Employees, October 23, 2003.
                  Available online at
                  http://www.usoge.gov/ethics_guidance/daeograms/dgr_files/2003/DO03021.HTML. Accessed
                  on September 9, 2009. In January 2007, OGE issued an updated OGE Form 450.
                     16 SGEs are required to report interests (e.g., assets, positions) held at any point in the
                  previous 12 months, even if they are not held at the time of the filing. SGEs must also
                  report financial interests attributed to them on behalf of another person or entity (e.g., a
                  spouse or dependent child). For the purposes of this report, SGEs’ financial interests refer
                  to both the SGEs’ own interests and those attributed to them during the reporting period.



OEI-04-07-00260   CDC’S ETHICS PROGRAM   FOR   SPECIAL GOVERNMENT EMPLOYEES   ON   FEDERAL                         3
                  ADVISORY COMMITTEES
I N T R O D        U C T       I O N

                          Part III - Outside Positions

                          Part IV - Agreements and Arrangements 17
                    CDC also requests (but does not require) SGEs to submit an updated
                    curriculum vitae with the OGE Form 450. 18 CDC uses the curriculum
                    vitae to identify grants that pose potential conflicts of interest because
                    this information is not required on the OGE Form 450. 19 CDC also uses
                    the curriculum vitae to identify other interests that could pose conflicts.

                    CDC must maintain financial disclosure files for SGEs, by committee,
                    including the current and prior OGE Forms 450 and supporting
                    documentation (e.g., curriculum vitae). 20
                    Ensuring Complete Disclosure of Financial Information
                    Once CDC receives an SGE’s OGE Form 450, it must ensure that the
                    form is complete before approving (i.e., certifying) it. 21 MASO reviewers
                    take the SGEs’ disclosures on OGE Forms 450 at “face value.” 22 That
                    is, MASO reviewers assess the extent to which forms are complete
                    based on omissions that they can identify given the interests that are
                    disclosed by the SGEs anywhere in their financial disclosure files
                    (e.g., curricula vitae, 2006 and 2007 OGE Forms 450). MASO reviewers
                    are not required to identify omissions that result from interests that the
                    SGEs consistently fail to disclose anywhere in the file.

                    If CDC determines that a form is incomplete, it must contact the SGE to
                    obtain additional information. 23 CDC then annotates the form with the
                    additional information. 24




                        17 SGEs are not required to complete Part V – Gifts and Travel Reimbursement.
                        18 A curriculum vitae is similar to a résumé but is a more comprehensive account of an
                    individual’s professional history (e.g., education, employment, publications, grants).
                        19 Information regarding SGEs’ involvement in grants that are awarded to their
                    employers is not required to be disclosed on the OGE Form 450.
                        20 CDC Policy, CDC-GA-2001-05, loc. cit.
                        21 5 CFR §§ 2634.605(b)(1)(i) and (b)(2). OGE, “OGE Form 450: A Review Guide,” loc.
                    cit.
                        22 5 CFR § 2634.605(b)(2).
                        23 CDC Policy, CDC-GA-2001-05, loc. cit.
                        24 Ibid.




 OEI-04-07-00260    CDC’S ETHICS PROGRAM   FOR   SPECIAL GOVERNMENT EMPLOYEES   ON   FEDERAL                     4
                    ADVISORY COMMITTEES
I N T R O D        U C T      I O N

                    An OGE Form 450 is incomplete if, for example:

                     items are not fully described or listed in all appropriate sections of
                      the form, according to OGE guidance and the form’s instructions; 25
                     the form does not contain all items that require disclosure; 26 or

                     CDC’s annotations to the form (i.e., amendments) do not indicate
                      that the SGE authorized the changes or include the reviewer’s
                      initials or the date of the changes. 27
                    Identifying Conflicts of Interest
                    CDC reviews committee charters to determine the scope of the matters
                    generally addressed by each committee. 28 Then, CDC examines each
                    SGE’s OGE Form 450 and curriculum vitae in relation to the committee
                    charter to identify potential conflicts of interest. 29, 30
                    If CDC identifies a potential conflict of interest, it obtains additional
                    information or legal guidance to determine whether a conflict actually
                    exists. To do so, MASO consults with the SGE, the Designated Federal
                    Official, and/or the HHS Office of the General Counsel. 31




                      25 For example, compensated non-Federal employment listed in Part II - Outside
                    Positions must also be disclosed as a source of income in Part I - Assets and Income. OGE,
                    OGE Form 450: Confidential Financial Disclosure Report, January 2007.
                      26 For example, relevant items listed on the SGE’s curriculum vitae or prior
                    OGE Form 450 must also be listed on the current year’s form. CDC Policy, CDC-GA-2001-
                    05, loc. cit.
                      27 CDC Policy, CDC-GA-2001-05, loc. cit. OGE, OGE Form 450: A Review Guide, loc. cit.
                      28 Committee charters outline the authority, purpose, and function of each committee.
                      29 We use the term “potential” conflicts of interest to refer to interests that have not yet
                    been deemed conflicts of interest. Additional information is needed to determine whether
                    these interests do, in fact, pose conflicts.
                      30 MASO reviewers take the OGE Form 450 at “face value.” 5 CFR § 2634.605(b)(2).
                    Further, CDC (and the HHS Office of the General Counsel) must rely on SGEs’ self-reported
                    interests (e.g., those on the curricula vitae and OGE Forms 450) to identify potential
                    conflicts of interest. Therefore, CDC cannot identify potential conflicts of interest that
                    result from interests SGEs did not disclose on the current OGE Forms 450 if SGEs
                    consistently fail to disclose these interests in other documents (e.g., curricula vitae and
                    prior OGE Forms 450) in the financial disclosure files.
                      31 Attorneys within the HHS Office of the General Counsel Ethics Division provide
                    conflict-of-interest and ethics-program expertise. Attorneys within the Public Health
                    Division (i.e., program attorneys) provide expertise on program matters (i.e., knowledge of
                    the committee’s work that is more extensive than the summary found in the charter). HHS
                    Office of the General Counsel Ethics Division, “Deputy Ethics Counselor HHS Ethics
                    Program Statement of Functions, Responsibilities, and Authority,” revised August 15, 2007.



 OEI-04-07-00260    CDC’S ETHICS PROGRAM   FOR   SPECIAL GOVERNMENT EMPLOYEES   ON   FEDERAL                     5
                    ADVISORY COMMITTEES
I N T R O D        U C T       I O N


                    MASO’s practice is to maintain in the SGEs’ financial disclosure files
                    documentation of email and phone correspondences with the SGEs,
                    Designated Federal Officials, and the HHS Office of the General
                    Counsel pertaining to the identification and resolution of SGEs’ conflicts
                    of interest. 32
                    There are two main types of conflicts of interest that apply to SGEs on
                    CDC’s committees. SGEs may have conflicts of interest covered by the
                    criminal conflict-of-interest statute, 18 U.S.C. § 208, or by the
                    Standards of Ethical Conduct for Employees of the Executive Branch
                    (i.e., the Standards of Ethical Conduct), 5 CFR § 2635.
                    Conflicts of interest covered by the criminal conflict-of-interest statute.
                    SGEs must not participate in committee work regarding particular
                    matters that could have a direct and predictable effect on their financial
                    interests. 33 A particular matter will have a direct effect on a financial
                    interest if there is a close causal link between any decision or action to
                    be taken in the matter and any anticipated effect of the matter on the
                    financial interest. The effect does not need to be immediate to be direct.
                    A particular matter will have a predictable effect if there is a real, as
                    opposed to a speculative, possibility that the matter will affect the
                    financial interest. The effect does not need to be of a specific magnitude
                    or dollar amount to be direct.

                    For example, in certain cases, SGEs may not participate in committee
                    work that would affect a company if they hold that company’s publicly
                    traded stock in excess of certain minimal (i.e., de minimis) values. 34, 35
                    Specifically, an SGE who holds stock in excess of $15,000 in a company
                    is prohibited from participating in committee work that could affect that


                      32 There is no statutory or regulatory requirement that CDC maintain this

                    documentation. However, CDC policy requires MASO to maintain official files for each
                    committee, which includes OGE Forms 450 and other pertinent information in accordance
                    with the CDC Records Schedule. CDC Policy, CDC-GA-2001-05, loc. cit.
                      33 5 CFR § 2635.402.
                      34 We will use the term “particular matter” to refer to committee work that involves the
                    interests of a specific entity (e.g., a company) or a class of entities (e.g., a sector of similar
                    companies). 5 CFR § 2640.103 (a)(1).
                      35 18 U.S.C. § 208. 5 CFR § 2640.202. OGE, Memorandum to Designated Agency Ethics
                    Officials, DO-02-006. Publication of Final Rule Amending 5 CFR pt. 2640. March 19, 2002.
                    Available online at
                    http://www.usoge.gov/ethics_guidance/daeograms/dgr_files/2002/do02006.html. Accessed on
                    July 10, 2009.



 OEI-04-07-00260    CDC’S ETHICS PROGRAM    FOR   SPECIAL GOVERNMENT EMPLOYEES     ON   FEDERAL                          6
                    ADVISORY COMMITTEES
  I N T R O D        U C T        I O N

                  specific company. 36 Further, if an SGE holds stock with a value
                  exceeding $25,000 in a company or an aggregate of stock exceeding
                  $50,000 in a sector (i.e., a group of companies in a related industry), the
                  SGE is prohibited from participating in committee work that could
                  affect all companies within that sector. 37
                  SGEs are required to list names of certain stock holdings, but not
                  values, on the OGE Form 450. When CDC identifies a stock that poses
                  a potential conflict of interest, it should contact the SGE to determine
                  whether it exceeds de minimis values. Further, CDC should determine
                  whether it must prohibit the SGE from participating in committee work
                  involving individual companies or an entire sector of companies.
                  In addition, SGEs are prohibited from participating in committee
                  work that would affect their employment, grants, assets, or board
                  membership. For example, an SGE’s employment with a vaccine
                  manufacturer may pose a conflict of interest covered by the criminal
                  conflict-of-interest statute if committee work could directly and
                  predictably affect that specific vaccine manufacturer. 38 However, an
                  SGE’s grant, for example, would normally not pose a conflict of
                  interest covered by the criminal conflict-of-interest statute if the
                  committee deliberates on a particular grant or contract held by a
                  different vaccine manufacturer.

                  Conflicts of interest covered by the Standards of Ethical Conduct. SGEs
                  must not participate in committee work regarding particular matters
                  if a reasonable person would question their impartiality on these
                  matters. Such impartiality concerns could arise because of SGEs’ own
                  interests or those attributed to them on behalf of persons or entities
                  with which SGEs have certain personal or business relationships. 39
                  For example, SGEs’ impartiality may be questioned if they receive



                    36 5 CFR § 2640.202(a).
                    37 5 CFR § 2640.202 (c) provides de minimis exemptions for values of stock owned by
                  employees who participate in particular matters of general applicability.
                     38 SGEs serving on committees have a regulatory exemption to participate in committee
                  work regarding particular matters of general applicability that would affect their employer
                  to the same extent that similarly situated entities would be affected. However, an SGE
                  must not participate in committee work that would affect the financial interests of his or
                  her specific employer but not similarly situated entities. 5 CFR § 2640.203(g).
                    39 5 CFR 2635.501 et seq. sets forth the relevant prohibitions and identifies the five
                  applicable “covered relationships.”



OEI-04-07-00260   CDC’S ETHICS PROGRAM   FOR   SPECIAL GOVERNMENT EMPLOYEES   ON   FEDERAL                      7
                  ADVISORY COMMITTEES
   I N T R O D          U C T       I O N

                  consulting fees, honoraria, or speaking fees from companies that could
                  be affected by the committee’s work.
                  Resolving Conflicts of Interest
                  CDC may resolve SGEs’ conflicts of interest with ethics agreements,
                  including 18 U.S.C. § 208(b)(3) waivers (i.e., waivers). 40, 41 If CDC does
                  not resolve a conflict of interest with an ethics agreement, it should not
                  certify the SGE’s OGE Form 450 or permit the SGE to participate in
                  committee work. 42
                  Waivers acknowledge that a conflict of interest exists but that the need
                  for the SGE’s services outweighs the risk posed by the conflict. CDC
                  collaborates with the HHS Office of the General Counsel to develop
                  waivers.

                  Adequately documented waivers must, among other requirements,
                  reflect the SGE’s unique conflict(s) of interest. 43 For example, CDC
                  must specify in a waiver:

                       the specific interest(s) that pose a conflict(s),

                       the general matter(s) in which CDC permits the SGE to participate,
                        and



                     40 In this report, we use the term “ethics agreements” to include waivers, recusal plans,
                  divestitures, and authorizations, which may all be used to resolve SGEs’ conflicts of
                  interest. 5 CFR §§ 2634.802(a) and 2635.502(d). Most ethics agreements that CDC issues
                  are limited waivers, which contain a section that describes the particular matters in which
                  CDC prohibits the SGE from participating (i.e., recusal plans). However, CDC can
                  document these recusal plans for an SGE separately from a waiver in cases where it
                  determines that the SGE should be prohibited from participating in particular matters but
                  should not be granted a waiver to participate in general committee matters.
                  See 5 CFR §§ 2635.402(c) and 2634.804(b)(1). In cases where an SGE owns stock that
                  exceeds established de minimis values, the SGE may be directed to sell (i.e., divest) the
                  portion of the stock that exceeds de minimis values. 5 CFR § 2635.402(e). MASO must
                  document in the SGE’s file that the divestiture occurred. 5 CFR § 2634.804(b)(2). An
                  agency can determine that impartiality concerns pursuant to Subpart E of the Standards of
                  Ethical Conduct require an employee’s recusal from participating in a particular matter.
                  5 CFR § 2635.502(c)(1). If the agency believes that the SGE should participate in a
                  particular matter despite impartiality concerns, then the agency may grant the SGE an
                  authorization to participate in that particular matter. 5 CFR § 2635.502(d).
                      41 5 CFR part 2634 Subpart H (“Ethics Agreements”) defines these agreements to include
                  “any oral or written promise by a reporting individual to undertake specific actions in order
                  to alleviate an actual or apparent conflict of interest.” Furthermore, “Subpart H of this part
                  applies to both the public and confidential reporting systems.” 5 CFR 2634.909(c).
                      42 CDC Policy, CDC-GA-2001-05, loc. cit.
                      43 5 CFR § 2640.302 sets forth requirements for adequately documented waivers.




OEI-04-07-00260   CDC’S ETHICS PROGRAM   FOR   SPECIAL GOVERNMENT EMPLOYEES   ON   FEDERAL                     8
                  ADVISORY COMMITTEES
I N T R O D        U C T       I O N


                         any particular matter(s) in which CDC prohibits the SGE from
                          participating.

                    In addition, CDC must ensure that the SGE signs the waiver to confirm
                    and acknowledge the terms of the waiver. 44
                    Providing and Documenting Ethics Training
                    CDC must provide ethics training to ensure that SGEs are familiar with
                    ethics requirements and their responsibilities not to participate in
                    committee work regarding particular matters related to their conflicts of
                    interest. 45 New SGEs must receive initial ethics training within
                    90 days of their appointment. 46 Incumbent SGEs must receive annual
                    ethics training anytime in the calendar year.47 CDC requires SGEs to
                    submit signed and dated training certificates to document that they
                    completed the training and understood their ethics obligations. 48
                    Monitoring Compliance With Ethics Requirements During Committee
                    Meetings
                    CDC must prohibit SGEs from participating in committee meetings if
                    they do not have current, certified OGE Forms 450 on file. 49 That is,
                    new SGEs must file OGE Forms 450 within 30 days of their
                    appointment. 50 Incumbent SGEs must file forms annually within 1
                    year




                       44 CDC Policy, CDC-GA-2001-05, loc. cit. In addition, pursuant to 5 CFR § 2640.302

                    (a)(6), SGEs with conflicts of interest may not participate in official duties related to their
                    conflicts of interest until they are granted a waiver.
                        45 Ibid.
                        46 5 CFR § 2638.703.
                        47 5 CFR § 2638.705 and CDC Policy, CDC-GA-2001-05, loc. cit.
                        48 CDC Policy, CDC-GA-2001-05, loc. cit.
                      49 OGE requires the SGE to file “before any advice is rendered by the employee to the
                    agency, or in no event, later than the first committee meeting.” 5 CFR § 2634.903(b)(3).
                    OGE also requires CDC to review and certify the form as complete. 5 CFR § 2634.605(b).
                    Additionally, CDC requires that SGEs file and MASO certify the OGE Form 450 before the
                    SGE participates in committee meetings. CDC Policy, CDC-GA-2001-05, loc. cit.
                        50 5 CFR § 2634.903(b)(1).




 OEI-04-07-00260    CDC’S ETHICS PROGRAM   FOR   SPECIAL GOVERNMENT EMPLOYEES    ON   FEDERAL                         9
                    ADVISORY COMMITTEES
I N T R O D       U C T        I O N


                  of the dates CDC received their prior forms. 51, 52 CDC must certify
                  current forms before SGEs participate in committee meetings.

                  Additionally, SGEs must not participate in committee work regarding
                  particular matters if their waivers prohibit such participation. 53
                  MASO must notify the Designated Federal Official when an SGE is
                  prohibited from participating in committee work. 54 The Designated
                  Federal Official is responsible for actively monitoring committee
                  meetings to ensure that SGEs do not violate ethics requirements. 55
                  SGEs who participate in committee meetings without current, certified
                  OGE Forms 450 on file are not in compliance with OGE regulations
                  and/or CDC policy. SGEs who do not comply with the terms of their
                  waivers while participating in committee meetings may violate the
                  criminal conflict-of-interest statute and/or the Standards of Ethical
                  Conduct, depending on the nature of their conflict(s) of interest.

                  SGEs who do not comply with OGE regulations or CDC policy are
                  subject to agency administrative action. 56 In addition, SGEs who
                  allegedly violate the criminal conflict-of-interest statute are subject to
                  prosecution by the Department of Justice. 57 In HHS, alleged violations




                     51 5 CFR § 2634.903(b). OGE, Memorandum to Designated Agency Ethics Officials,
                  DO-95-019. Confidential financial disclosure and special Government employees serving in
                  a position for more than one year, April 11, 1995. Available online at
                  http://www.usoge.gov/ethics_guidance/daeograms/dgr_files/1995/do95019.txt. Accessed on
                  July 10, 2009. CDC Policy, CDC-GA-2001-05, loc. cit. Therefore, according to CDC policy,
                  each SGE has a unique filing deadline for submitting OGE Forms 450.
                     52 Incumbent SGEs submit new forms each year, regardless of whether their financial
                  interests have changed. SGEs are also required to update the forms during the year if their
                  financial interests change. CDC Policy, CDC-GA-2001-05, loc. cit.
                    53 OGE, Memorandum to Designated Agency Ethics Officials, DO-04-012. “Effective
                  Screening Arrangements for Recusal Obligations,” June 1, 2004. Available online at
                  http://www.usoge.gov/ethics_guidance/daeograms/dgr_files/2004/do04012.html. Accessed on
                  July 10, 2009.
                    54 CDC Policy, CDC-GA-2001-05, loc. cit.
                    55 Ibid.
                    56 Pursuant to 5 CFR § 2635.106, a violation of OGE regulations justifies appropriate
                  corrective or disciplinary action.
                    57 Violations of the criminal conflict-of-interest statute remain allegations until the SGE
                  is prosecuted and the judicial system determines that the SGE has actually violated the
                  statute. 18 U.S.C. § 216 and 18 U.S.C. § 208.



OEI-04-07-00260   CDC’S ETHICS PROGRAM   FOR   SPECIAL GOVERNMENT EMPLOYEES   ON   FEDERAL                   10
                  ADVISORY COMMITTEES
I N T R O D        U C T      I O N


                    of criminal ethics statutes must be reported to the Office of Inspector
                    General (OIG). 58
                    Previous Office of Inspector General Work
                    In 1994, OIG reported on the National Institutes of Health’s (NIH)
                    ethics program for SGEs. 59 OIG found that NIH did not review
                    financial disclosure forms to identify conflicts of interest or have
                    up-to-date guidance on identifying and resolving conflicts of interest.

                    In response to OIG’s recommendations, NIH implemented corrective
                    actions to improve internal controls over conflicts of interest. For
                    example, NIH developed a process to require ongoing updates of
                    financial disclosure information and review of SGEs’ financial interests.
                    NIH also developed an alternate financial disclosure form to allow SGEs
                    to disclose non-Federal grants and contracts. Further, NIH developed
                    updated guidance to responsible NIH officials for identifying conflicts of
                    interest and determining when waivers should be issued.


                    METHODOLOGY
                    Scope
                    We reviewed financial disclosure files for 246 of 259 SGEs on all 17 CDC
                    committees in 2007. 60 See Appendix B for additional details on our
                    methodology, including reasons for excluding 13 SGEs.
                    Data Sources and Collection
                    We reviewed ethics requirements and OGE guidance documents.

                    We collected 2007 data from the following sources:
                     SGE financial disclosure files (e.g., OGE Forms 450 and supporting
                      documentation, which include waivers and curricula vitae);

                     committee meeting minutes; and

                     committee charters.

                    We reviewed financial disclosure files for SGEs, meeting minutes, and
                    committee charters. Once we reviewed all the documents that


                       58 HHS, General Administration Manual, chapter 5-10, “Responsibility and Procedures

                    for Reporting Misconduct and Criminal Offenses,” December 26, 2006.
                      59 OIG, Review of the National Institutes of Health’s Controls Over Advisory
                    Committees’ Potential Conflicts-of-Interest, A-15-93-00020.
                      60 As of December 31, 2007, CDC had assigned SGEs to 17 committees.




 OEI-04-07-00260    CDC’S ETHICS PROGRAM   FOR   SPECIAL GOVERNMENT EMPLOYEES   ON   FEDERAL             11
                    ADVISORY COMMITTEES
I N T R O D        U C T      I O N


                    pertained to one committee, we met with MASO to request all missing
                    documentation for that committee (e.g., OGE Forms 450, ethics training
                    certificates, and meeting minutes).
                    Data Analysis
                    We classified the 246 SGEs as new or incumbent committee members
                    based on their appointment dates. 61 In 2007, 79 percent (195 of 246) of
                    SGEs were incumbents. We accounted for different timeframes for
                    completing ethics requirements (e.g., submitting OGE Forms 450) for
                    new and incumbent SGEs.

                    We reviewed documents in the financial disclosure files to determine
                    whether SGEs’ OGE Forms 450 were complete after CDC certified
                    them. 62 Then, we identified potential conflicts of interest and
                    determined whether CDC identified all those that we identified. We
                    also determined the extent to which CDC created and adequately
                    documented ethics agreements to resolve potential conflicts of interest
                    that it identified. Further, we determined whether SGEs’ financial
                    disclosure files contained ethics training certificates. Finally, we
                    determined whether SGEs complied with ethics requirements during
                    committee meetings.

                    Complete disclosure of financial information. We determined whether
                    SGEs’ OGE Forms 450 were complete after CDC certified them in 2007.
                    We used OGE review criteria to assess a form’s completeness (see
                    Appendix C). That is, we determined the extent to which reportable
                    items were fully described and listed in appropriate sections of the
                    certified forms. We also determined whether relevant items on SGEs’
                    curricula vitae or the prior OGE Forms 450 were disclosed on the
                    certified 2007 forms. In addition, we determined whether reviewers
                    adequately documented their amendments to the forms.

                    We then counted the number of SGEs with incomplete OGE Forms 450
                    and determined how many of these SGEs were new and incumbents.
                    Finally, we determined the number of meetings that SGEs with
                    certified, incomplete OGE Forms 450 attended in 2007.




                      61 OIG analysis of CDC’s 2007 SGE financial disclosure files, 2008.
                      62 CDC certified OGE Forms 450 for 86 percent (212 of 246) of SGEs in 2007.
                    Seventy-six percent (161 of 212) of the SGEs with certified forms were incumbents. (OIG
                    analysis of CDC’s 2007 SGE financial disclosure files, 2008.)



 OEI-04-07-00260    CDC’S ETHICS PROGRAM   FOR   SPECIAL GOVERNMENT EMPLOYEES   ON   FEDERAL                  12
                    ADVISORY COMMITTEES
I N T R O D        U C T     I O N


                    Identification of potential conflicts of interest. We reviewed committee
                    meeting minutes, charters, and financial disclosure files to identify
                    potential conflicts of interest for SGEs with OGE Forms 450 certified by
                    CDC in 2007. We compared these potential conflicts of interest to those
                    CDC identified. If CDC did not document any contact with the SGE,
                    Designated Federal Official, or HHS Office of the General Counsel
                    regarding those interests, we classified them as potential conflicts of
                    interest not identified by CDC.
                    We then counted the number of SGEs with at least one potential conflict
                    of interest that we identified but CDC did not. We also determined how
                    many of those SGEs were new and incumbents. We consulted with the
                    HHS Office of Counsel to the Inspector General to confirm CDC-
                    unidentified potential conflicts of interest.

                    Finally, we determined the number of meetings attended by SGEs in
                    2007 whose OGE Forms 450 had been certified by CDC even though it
                    had not identified potential conflicts of interest.

                    Resolution of potential conflicts of interest. We determined the extent to
                    which CDC created ethics agreements to resolve the potential conflicts
                    of interest that it identified in 2007. If CDC did not create an ethics
                    agreement for a potential conflict of interest that it identified, we
                    determined whether the documentation in the SGE’s file supported
                    CDC’s conclusion that an ethics agreement was unnecessary. If CDC
                    did create an ethics agreement (i.e., waiver), we determined whether it
                    was adequately documented. If the documentation in an SGE’s file did
                    not support CDC’s conclusion regarding a conflict of interest or if the
                    SGE’s waiver was inadequately documented, we classified the SGE as
                    having an unresolved potential conflict of interest.
                    We then counted the number of SGEs with at least one unresolved
                    potential conflict of interest. We also determined how many of those
                    SGEs were new and incumbents. We consulted with the HHS Office of
                    Counsel to the Inspector General to confirm unresolved potential
                    conflicts of interest.

                    Finally, we determined the number of meetings attended by SGEs in
                    2007 whose OGE Forms 450 had been certified by CDC even though it
                    had not resolved the potential conflicts of interest that it had identified.

                    Documentation of ethics training. We determined whether CDC ensured
                    that SGEs’ financial disclosure files contained ethics training
                    certificates to document that SGEs received ethics training within

 OEI-04-07-00260    CDC’S ETHICS PROGRAM   FOR   SPECIAL GOVERNMENT EMPLOYEES   ON   FEDERAL   13
                    ADVISORY COMMITTEES
I N T R O D        U C T     I O N


                    required timeframes. For SGEs with training certificates in their files,
                    we determined whether they were signed by new SGEs within 90 days
                    of their appointment and by incumbents at any time within the 2007
                    calendar year.

                    We then counted the number of SGEs who did not have signed
                    certificates on file within the required timeframes. For new SGEs, we
                    also calculated the average and range in the number of days late they
                    signed their ethics training certificates.

                    Finally, we determined the number of meetings that new SGEs without
                    training certificates on file attended in 2007. We then calculated the
                    average and range of meetings that these SGEs attended in 2007.

                    Compliance with ethics requirements during committee meetings. We
                    reviewed meeting minutes to identify SGEs who attended the meetings,
                    the dates of the meetings, and the particular matters in which SGEs
                    voted.

                    First, we determined whether SGEs participated in committee meetings
                    without current OGE Forms 450 on file. To do so, we determined
                    whether SGEs submitted their forms within required timeframes in
                    2007. For new SGEs, we determined whether they participated in
                    committee meetings after their appointment dates and before
                    submitting their OGE Forms 450. For incumbents, we determined
                    whether they participated in committee meetings after the forms were
                    due and before they submitted the forms. Second, we determined
                    whether SGEs participated in committee meetings while having current
                    OGE Forms 450 on file, but before CDC certified the forms.

                    Then, we determined the number of meetings that SGEs without
                    current, certified forms on file attended in 2007. We also calculated the
                    average and range of meetings that these SGEs attended in 2007.

                    Finally, we determined whether SGEs complied with the terms of their
                    waivers. To do so, we compared the subjects of SGEs’ votes with the
                    particular matters in which they were prohibited from participating,
                    according to the terms of their waivers. We then counted the number of
                    SGEs who voted on particular matters even though the terms of their
                    waivers prohibited such participation.




 OEI-04-07-00260    CDC’S ETHICS PROGRAM   FOR   SPECIAL GOVERNMENT EMPLOYEES   ON   FEDERAL   14
                    ADVISORY COMMITTEES
I N T R O D        U C T     I O N


                    Limitations
                    We did not attempt to identify all potential conflicts of interest that
                    CDC did not identify or resolve for each SGE. We reported one
                    unidentified and one unresolved potential conflict per SGE, even if we
                    found that the SGE had additional potential conflicts of interest.

                    We classified CDC-identified potential conflicts of interest based on
                    documented correspondence between CDC and the SGE, the Designated
                    Federal Official, or the HHS Office of the General Counsel. MASO
                    reviewers may have identified, without documenting, potential conflicts of
                    interest that we classified as unidentified. While there is no statutory or
                    regulatory requirement that CDC maintain this documentation, without
                    it, CDC cannot demonstrate that MASO identified an SGE’s conflict of
                    interest.
                    We determined whether CDC ensured that SGEs received ethics
                    training within required timeframes based on the existence of ethics
                    training certificates. MASO is required to collect these certificates from
                    SGEs. We did not search for other indicators that SGEs received
                    required training.

                    Further, we based our assessment of SGEs’ compliance with ethics
                    requirements on a review of meeting minutes. However, CDC was
                    unable to provide minutes for two committee meetings.

                    We reported when SGEs did not comply with the terms of their waivers
                    only if they voted on particular matters in which they were prohibited
                    from participating, according to the terms of their waivers. However,
                    SGEs may have participated in prohibited committee work in ways
                    other than voting (e.g., preliminary discussions, interim evaluations,
                    final recommendations).
                    Standards
                    This study was conducted in accordance with the Quality Standards for
                    Inspections approved by the Council of the Inspectors General on
                    Integrity and Efficiency.




 OEI-04-07-00260    CDC’S ETHICS PROGRAM   FOR   SPECIAL GOVERNMENT EMPLOYEES   ON   FEDERAL   15
                    ADVISORY COMMITTEES
         F I N D I N G S


For almost all special Government employees,                   CDC certified OGE Forms 450
  CDC did not ensure that financial disclosure                 with at least one omission in 2007
                  forms were complete in 2007                  for 97 percent (205 of 212) of SGEs
                                                               with certified forms on file. 63
                         Most (186 of 212) of the OGE Forms 450 had more than one type of
                         omission. Seventy-seven percent (157 of 205) of the incomplete, certified
                         2007 OGE Forms 450 were submitted by incumbent SGEs.
                         Table 1 lists the number and percentage of certified 2007 OGE Forms 450
                         that were incomplete, by type of omission. Appendix D contains
                         additional details about the types of omissions on the forms.

Table 1: Of 212 Certified 2007 Confidential Financial Disclosure Reports, Number and
Percentage That Were Incomplete, by Type of Omission
                                                                                Number of             Percentage of
Type of Omission                                                           Certified Forms           Certified Forms
Disclosure not made according to the form’s instructions                               190                       90%
Relevant items on other documents not on form                                           167                      79%
Improper amendments to form                                                              34                      16%
  Total*                                                                               205                       97%
Source: OIG review of CDC’s 2007 SGE financial disclosure files, 2008.
* Numbers in columns do not sum to total because some forms contained multiple types of omissions.



                         Seventy-two percent (147 of 205) of SGEs with incomplete, certified forms
                         participated in committee meetings in 2007 after CDC certified their forms.
                         These SGEs participated in an average of 2 committee meetings after CDC
                         certified the forms, ranging from 1 to 16 meetings.
                         If CDC does not ensure that SGEs submit complete financial disclosure
                         information prior to certifying the OGE Forms 450, it cannot ensure that it
                         has identified and resolved all of the SGEs’ potential conflicts of interest
                         before permitting them to participate in committee meetings.



       CDC did not identify or resolve potential                             In 2007, 64 percent (136 of 212) of
    conflicts of interest for 64 percent of special                          SGEs had potential conflicts of
                                                                             interest that CDC did not identify
                  Government employees in 2007
                                                                             and/or resolve before it certified




                           63 We analyzed 212 forms because 212 of 246 SGEs had certified forms on file in 2007.




 OEI-04-07-00260         CDC’S ETHICS PROGRAM   FOR   SPECIAL GOVERNMENT EMPLOYEES   ON   FEDERAL                  16
                         ADVISORY COMMITTEES
F   I N D I N G      S


                  their OGE Forms 450. Specifically, 58 percent (124 of 212) of SGEs had
                  potential conflicts of interest that CDC did not identify. In addition,
                  32 percent (67 of 212) of SGEs had potential conflicts of interest that CDC
                  identified but did not resolve. Twenty-six percent (55 of 212) of SGEs had
                  both CDC-unidentified and unresolved potential conflicts of interest.
                  Seventy percent (95 of 136) of the SGEs with CDC-unidentified and/or
                  unresolved potential conflicts of interest were incumbents.

                  Nearly three-fourths (97 of 136) of SGEs with CDC-unidentified and/or
                  unresolved potential conflicts of interest participated in at least one
                  committee meeting in 2007 after their OGE Forms 450 were certified.
                  These SGEs participated in an average of 3 meetings, ranging from 1 to
                  16 meetings. Appendix E shows the average and range in number of
                  meetings in which these SGEs participated, by type of vulnerability.

                  Permitting SGEs with unidentified or unresolved conflicts of interest to
                  participate in committee work creates vulnerabilities. That is, the SGEs
                  may inadvertently violate ethics requirements during committee meetings
                  because they are not aware that the conflicts of interest exist. Further,
                  permitting such participation could compromise the integrity of the
                  committees’ work if committees make recommendations to the
                  Government that do not best serve the public’s interest.
                  Fifty-eight percent of special Government employees with certified
                  Confidential Financial Disclosure Reports had potential conflicts of interest
                  that CDC did not identify
                  Fifty-eight percent (124 of 212) of SGEs with certified forms had at least
                  one potential conflict of interest that CDC did not identify in 2007. For
                  these SGEs, CDC did not document any contact with the SGE, the
                  Designated Federal Official, or the HHS Office of the General Counsel to
                  discuss at least one interest that we identified as a potential conflict and
                  determine whether it did pose a conflict. Seventy-one percent (88 of 124)
                  of these SGEs were incumbents.

                  Potential conflicts of interest that we identified but CDC did not fall into
                  three general categories: employment and grants, equity ownership, and
                  consulting. Table 2 provides the number and percentage of SGEs with
                  CDC-unidentified potential conflicts of interest, by category.




OEI-04-07-00260   CDC’S ETHICS PROGRAM   FOR   SPECIAL GOVERNMENT EMPLOYEES   ON   FEDERAL   17
                  ADVISORY COMMITTEES
F   I N D I N G           S


     Table 2: Of 212 Special Government Employees With Certified Confidential Financial
     Disclosure Reports, Number and Percentage With CDC-Unidentified Potential Conflicts of
     Interest, by Category
                                                                                                       Number    Percentage
     Category                                                                                          of SGEs      of SGEs
     Employment and grants                                                                                  85          40%
     Equity ownership                                                                                       28          13%
     Consulting                                                                                             11           5%
      Total                                                                                                124          58%
     Source: OIG review of CDC’s 2007 SGE financial disclosure files, 2008.



                            The most common category was employment and grants (e.g., employment
                            with a potential CDC or HHS grantee or contractor, recipient of CDC-
                            funded grant). In 2007, 40 percent (85 of 212) of SGEs had potential
                            conflicts of interest in this category that CDC did not identify. For
                            example, over half (7 of 11) of SGEs on one committee were employed by
                            research institutions that conducted grant-funded studies related to
                            committee work. These research institutions were potential CDC grant
                            recipients. However, CDC did not identify the SGEs’ employment as an
                            interest that could conflict with committee work for any of these seven
                            SGEs. As a result, CDC did not inform the SGEs that they would violate
                            the criminal conflict-of-interest statute if they participated in committee
                            work regarding particular matters affecting their specific employers’
                            financial interests.

                            Equity ownership (e.g., stocks, patents, business partnership) was the
                            second most common category. In 2007, 13 percent (28 of 212) of SGEs
                            had potential conflicts of interest in this category that CDC did not
                            identify. For example, most (26 of 28) of these SGEs held stock in
                            companies related to committee work, and CDC did not identify
                            ownership of the stock as potential conflicts of interest. As a result, CDC
                            did not contact these SGEs regarding the stocks to determine whether
                            they exceeded de minimis values. Further, CDC did not determine, based
                            on the value of the stock, whether it must prohibit the SGE from
                            participating in committee work involving individual companies or an
                            entire sector.

                            Finally, consulting (e.g., advisory board memberships, honoraria,
                            speaking engagements, and expert witness activities) was the least
                            common category. In 2007, 5 percent (11 of 212) of SGEs had potential
                            conflicts of interest in this category that CDC did not identify.




    OEI-04-07-00260         CDC’S ETHICS PROGRAM   FOR   SPECIAL GOVERNMENT EMPLOYEES   ON   FEDERAL                   18
                            ADVISORY COMMITTEES
F   I N D I N G      S

                  Nearly one-third of special Government employees with certified
                  Confidential Financial Disclosure Reports had potential conflicts of interest
                  that CDC identified but did not resolve
                  In 2007, 32 percent (67 of 212) of SGEs with certified forms had at least
                  one potential conflict of interest that CDC identified but did not resolve.
                  Sixty-seven percent (45 of 67) of the SGEs were incumbents. For these
                  67 SGEs, CDC contacted the SGE, the Designated Federal Official, and/or
                  the HHS Office of the General Counsel about the interests. However,
                  CDC did not sufficiently resolve these potential conflicts of interest.

                  CDC did not create ethics agreements to resolve potential conflicts of interest
                  for 23 percent (49 of 212) of SGEs. In 2007, CDC identified potential
                  conflicts of interest for 49 SGEs but did not create ethics agreements to
                  resolve them.

                  For 25 of the 49 SGEs, our review of the SGEs’ files indicated that
                  conflicts of interest clearly existed and ethics agreements were necessary,
                  but CDC had not developed ethics agreements to resolve the conflicts. For
                  example, one SGE was a member of a committee that reviewed CDC grant
                  applications. This SGE listed a CDC-funded grant, which was active in
                  2007, related to committee work on his curriculum vitae. CDC contacted
                  the SGE regarding this grant, but it did not create an ethics agreement to
                  resolve this conflict of interest. Further, CDC did not notify this SGE that
                  he was prohibited from participating in particular matters regarding his
                  specific employer and/or grant. 64
                  For the remaining 24 of the 49 SGEs, our review of the SGEs’ files
                  indicated that conflicts of interest may have existed, but CDC did not
                  gather the necessary information to support its conclusion that conflicts
                  did not exist. For example, one SGE emailed CDC indicating that she
                  likely owned stock in a company related to committee work in excess of
                  $25,000. The Designated Federal Official and a program attorney within
                  the HHS Office of the General Counsel advised MASO that ownership of
                  stock in that company did not pose a conflict because the SGE’s committee
                  would not likely discuss that specific company. However, CDC should
                  prohibit an SGE with stock in excess of $25,000 from participating in
                  committee work that could affect the entire sector of companies. CDC
                  documented its determination that there was no conflict of interest
                  without first confirming whether the stock was above $25,000.




                    64 CDC subsequently issued an ethics agreement for this SGE, citing this grant, in March
                  2008.



OEI-04-07-00260   CDC’S ETHICS PROGRAM   FOR   SPECIAL GOVERNMENT EMPLOYEES   ON   FEDERAL               19
                  ADVISORY COMMITTEES
F   I N D I N G       S

                  CDC created waivers but did not adequately document them for 8 percent
                  (18 of 212) of SGEs. Eight percent (18 of 212) of SGEs had waivers on file
                  in 2007. However, CDC certified these SGEs’ OGE Forms 450 in 2007
                  without adequately documenting their waivers. Specifically, all (18 of 18)
                  of these SGEs had waivers that did not specify the SGEs’ conflicts of
                  interest, the general matters in which they were permitted to participate,
                  or the particular matters in which they were prohibited from
                  participating.

                  That is, CDC used general language in these waivers covering broad
                  categories of interests to describe the SGEs’ conflicts that it identified
                  during its review of the OGE Forms 450 and curricula vitae. Identical
                  language was often repeated in different SGEs’ waivers. For example:

                     “[e]mployment or consulting with, and honoraria or other
                      compensation from, research institutions, state and local government,
                      pharmaceutical companies, health care industries, or other
                      organizations . . . ;”

                      “[g]rants, contracts, or other funding for research or other services
                      that he may receive from the Federal government and from non-
                      Federal sources;” and

                     “[e]xpert witness, litigation or advocacy services.”

                  CDC did not specify each SGE’s unique conflicts of interest by stating, for
                  example, that an SGE’s employment with university X, a current CDC
                  grantee, creates a conflict of interest.

                  Additionally, CDC stated, for example, that the SGE would be granted “a
                  waiver under 18 U.S.C. § 208(b)(3), permitting him to participate in the
                  deliberations and recommendations of [the committee].” However, CDC
                  did not specify the general matters related to the conflicts of interest in
                  which the SGE was permitted to participate.

                  Further, CDC did not specify the particular matters in which the SGE
                  was prohibited from participating. For example, CDC did not state that
                  the SGE is prohibited from participating in committee work addressing
                  radiation exposure at facility X.

                  Finally, CDC certified 2007 OGE Forms 450 for 7 of these 18 SGEs with
                  waivers without ensuring that the SGEs signed their waivers to indicate
                  that they were informed of the terms of the waiver and any limitations on




OEI-04-07-00260   CDC’S ETHICS PROGRAM   FOR   SPECIAL GOVERNMENT EMPLOYEES   ON   FEDERAL   20
                  ADVISORY COMMITTEES
F   I N D I N G       S

                   their participation in committee work because of their conflicts of
                   interest. 65



CDC did not ensure that 41 percent of special                        CDC did not ensure that 41 percent
                                                                     (101 of 246) of SGEs had ethics
  Government employees received required
                                                                     training certificates on file to
                      ethics training in 2007
                                                                     document that SGEs received ethics
                                                                     training within required timeframes
                                                                     in 2007. 66
                   Thirteen percent (13 of 101) of these SGEs were new committee members
                   who did not have ethics training certificates on file to demonstrate that
                   they received initial ethics training within 90 days of their appointment.
                   On average, these SGEs completed the training 183 days late, ranging
                   from 21 to 288 days late.

                   Nine of the thirteen new SGEs participated in committee meetings prior
                   to completing initial ethics training in 2007. These SGEs participated in
                   an average of 4 committee meetings before the dates of their training
                   certificates, ranging from 1 to 14 meetings. These SGEs’ participation
                   poses a vulnerability because they had not received initial ethics training
                   prior to participating in committee meetings and were not informed about
                   their ethics obligations as an SGE.

                   The remaining 87 percent (88 of 101) of the SGEs without training
                   certificates were incumbents. These SGEs did not have ethics training
                   certificates on file to demonstrate that they received annual ethics
                   training at any point in 2007.

                   If CDC does not document SGEs’ receipt of ethics training, it cannot
                   demonstrate that SGEs were aware of their ethics requirements when
                   participating in committee work.



          Fifteen percent of special Government                         In 2007, 15 percent (36 of 246) of
          employees did not comply with ethics                          SGEs did not comply with ethics
                                                                        requirements during committee
       requirements during committee meetings
                                                                        meetings. Specifically, 13 percent
                                         in 2007

                     65 In addition, one SGE signed, but did not date, the waiver. We did not count this SGE
                   among the seven who did not sign their waivers before CDC certified their OGE Forms 450.
                     66 We analyzed the entire sample of 246 SGEs rather than only 212 SGEs with certified
                   OGE Forms 450 on file because the existence of a training certificate in an SGE’s file is
                   independent of a certified OGE Form 450.



 OEI-04-07-00260   CDC’S ETHICS PROGRAM   FOR   SPECIAL GOVERNMENT EMPLOYEES   ON   FEDERAL                    21
                   ADVISORY COMMITTEES
 F   I N D I N G       S

                  (33 of 246) of SGEs participated in committee meetings in 2007 without
                  having current, certified OGE Forms 450 on file. In addition, 3 percent
                  (7 of 246) of SGEs voted on particular matters when the terms of their
                  waivers prohibited such participation. Four SGEs both participated in
                  committee meetings without current, certified OGE Forms 450 on file and
                  voted on particular matters when their waivers prohibited such
                  participation.
                  Thirteen percent of special Government employees participated in
                  committee meetings without having current, certified Confidential Financial
                  Disclosure Reports on file
                  Thirteen percent (33 of 246) of SGEs participated in at least one meeting
                  without having current, certified OGE Forms 450 on file in 2007. 67
                  Almost all (31 of 33) of these SGEs were incumbents.

                  Specifically, 7 percent (17 of 246) of SGEs participated in at least one
                  committee meeting before submitting 2007 OGE Forms 450. Almost all
                  (16 of 17) of these SGEs were incumbents and, at the time of their
                  participation, had not submitted OGE Forms 450 within 12 months of
                  their prior submissions. One SGE was new and did not submit an
                  OGE Form 450 within 30 days of appointment. These 17 SGEs
                  participated in an average of one meeting without having current forms
                  on file, ranging from one to two meetings.

                  In addition, 7 percent (18 of 246) of SGEs participated in at least one
                  committee meeting before CDC certified their 2007 OGE Forms 450. 68
                  Almost all (17 of 18) of the SGEs were incumbents. The 18 SGEs
                  participated in an average of two meetings without having certified forms
                  on file, ranging from one to eight meetings.

                  To prevent SGEs from participating in committee meetings without
                  current, certified OGE Forms 450, we shared detailed information
                  regarding these 33 SGEs with CDC and the HHS Office of the General
                  Counsel in April 2009.
                  Three percent of special Government employees voted on particular
                  matters in which they were prohibited from participating
                  Three percent (7 of 246) of SGEs voted on particular matters when the
                  terms of their waivers prohibited such participation. All seven of these
                  SGEs were on one committee, and five were incumbents.

                    67 In 2007, 42 percent (103 of 246) of SGEs did not submit their OGE Forms 450 by the
                  filing deadline. These SGEs submitted their forms an average of 75 days late, ranging from
                  1 to 361 days late.
                    68 Two of these eighteen SGEs also participated in at least one meeting before submitting
                  their 2007 OGE Forms 450.



OEI-04-07-00260   CDC’S ETHICS PROGRAM   FOR   SPECIAL GOVERNMENT EMPLOYEES   ON   FEDERAL                  22
                  ADVISORY COMMITTEES
F   I N D I N G      S

                  To prevent continued noncompliance at subsequent committee meetings,
                  we shared detailed information regarding these seven SGEs with CDC
                  upon discovery and with the HHS Office of the General Counsel in April
                  2009. These cases were also forwarded to OIG’s Office of Investigations
                  for review and evaluation to determine the appropriate course of action. 69




                    69 The cases were forwarded to the OIG Office of Investigations because the waivers were
                  created pursuant to the criminal conflict-of-interest statute. The OIG Office of Investigations
                  reviewed information regarding these seven SGEs and determined, largely as a result of
                  CDC’s systemic lack of oversight of the ethics program for SGEs identified in this report, that
                  the actions of the seven SGEs did not rise to the level of criminal violations of the conflict-of-
                  interest statute.



OEI-04-07-00260   CDC’S ETHICS PROGRAM   FOR   SPECIAL GOVERNMENT EMPLOYEES   ON   FEDERAL                      23
                  ADVISORY COMMITTEES
 R E RC EO      CM OM ME M
                         N DE AN TD I AO TN I S O N S



                     SGEs on CDC Federal advisory committees are voting members who may
                     have conflicts of interest with their committee work. To protect the
                     committees’ integrity and credibility, SGEs with conflicts of interest must
                     not inappropriately influence their committees’ work. However, we found
                     that CDC had a systemic lack of oversight of the ethics program for SGEs.
                     That is, for almost all SGEs, CDC did not ensure that they submitted
                     complete financial information in 2007. Additionally, CDC did not
                     identify or resolve potential conflicts of interest for 64 percent of SGEs.
                     CDC also did not ensure that 41 percent of SGEs had ethics training
                     certificates on file to indicate that they received initial or annual ethics
                     training and were informed about their ethics obligations. Finally,
                     15 percent of SGEs did not comply with ethics requirements during
                     committee meetings.

                     Therefore, we recommend that CDC:
                     Ensure that special Government employees’ Confidential Financial Disclosure
                     Reports are complete before certifying them
                     During its review of the OGE Forms 450, CDC should ensure that all items
                     are complete and listed in all relevant sections of the form, according to the
                     form’s instructions and OGE guidance. In addition, CDC should compare
                     the OGE Form 450 with the SGE’s curriculum vitae and the prior
                     OGE Form 450 to ensure that all relevant items disclosed on these
                     documents are contained on the current OGE Form 450. For all items
                     requiring amendments, CDC should ensure that MASO reviewers document
                     the SGE’s authorization of the changes. Further, CDC should ensure that
                     MASO reviewers initial and date their amendments. CDC could also
                     implement an automated system for SGEs to submit their OGE Forms 450.
                     Require special Government employees to disclose their involvement in
                     grants and other relevant interests that could pose conflicts but that are not
                     disclosed on the Confidential Financial Disclosure Report
                     The OGE Forms 450 do not require SGEs to disclose all interests that could
                     pose conflicts. For example, information about SGEs’ grant activities and
                     patents are not required to be disclosed on the OGE Forms 450. However,
                     CDC should obtain information regarding SGEs’ interests that could pose
                     conflicts, such as their involvement in grants, to identify conflicts of interest
                     posed by these interests. To accomplish this, CDC could require, rather



  OEI-04-07-00260    CDC’S ETHICS PROGRAM   FOR   SPECIAL GOVERNMENT EMPLOYEES   ON   FEDERAL   24
                     ADVISORY COMMITTEES
R   E C O         M M E N D A T             I O N        S

                     than request, SGEs to submit updated curricula vitae. However, SGEs do
                     not disclose all necessary information consistently, or at all, on the curricula
                     vitae. Therefore, CDC could also request OGE to approve an alternate
                     OGE Form 450 that requires SGEs to disclose their involvement in grants
                     and other relevant interests that are not disclosed on the OGE Form 450.
                     Identify and resolve all conflicts of interest for special Government employees
                     before permitting them to participate in committee meetings
                     CDC should thoroughly review each SGE’s financial disclosure file to
                     identify conflicts of interest covered by the criminal conflict-of-interest
                     statute or the Standards of Ethical Conduct. CDC should thoroughly review
                     the OGE Forms 450, curricula vitae, committee charters, and meeting
                     minutes to become more familiar with topics covered by the committees and
                     identify interests that could pose a conflict of interest with committee work.
                     Additionally, CDC could seek SGEs’ input on what interests could pose
                     conflicts. That is, for each committee, CDC could develop targeted
                     questionnaires to elicit information from the SGEs to help CDC identify
                     potential conflicts of interest. By virtue of their expertise in the field related
                     to committee work, SGEs may be better positioned to identify potential
                     conflicts of interest with committee work than MASO reviewers. For
                     example, to determine if an SGE who holds stock in a pharmaceutical
                     company has a potential conflict of interest, MASO reviewers would need to
                     be familiar with the drugs currently marketed and under development by
                     the company and all uses for these drugs. While MASO reviewers are
                     typically not as knowledgeable in these areas, SGEs are considered experts.

                     Alternatively, CDC could implement a system whereby, before each meeting,
                     CDC program staff would generate and share with MASO a list of potential
                     conflicts of interest that pertain to matter(s) that will be discussed during
                     that meeting. Additionally, SGEs would disclose their interests before each
                     meeting so that MASO could identify potential conflicts of interest based on
                     the most up-to-date disclosures. At the meeting, MASO would provide each
                     SGE with a list of his or her own potential conflicts of interest as well as the
                     more general list of potential conflicts of interest developed by CDC program
                     staff prior to the meeting.

                     Once CDC determines that a conflict of interest does exist, it should resolve
                     it with a properly documented ethics agreement. CDC should ensure that
                     SGEs sign their ethics agreements, especially when the documents describe
                     particular matters in which SGEs are prohibited from participating. CDC
                     should ensure that SGEs sign these ethics agreements before it certifies the
                     OGE Forms 450 and before the SGEs participate in committee meetings.




OEI-04-07-00260      CDC’S ETHICS PROGRAM   FOR   SPECIAL GOVERNMENT EMPLOYEES   ON   FEDERAL   25
                     ADVISORY COMMITTEES
R   E C O        M M E N D A T          I O N           S

                      When CDC develops a waiver for an SGE, it should ensure that the
                      document describes the specific conflict of interest, general matters in which
                      that SGE is permitted to participate, and particular matters in which the
                      SGE is prohibited from participating.

                      If CDC determines that an interest does not pose a conflict, it should ensure
                      that the documentation in the SGE’s file supports this conclusion.
                      Increase collaboration among CDC officials and with the HHS Office of the
                      General Counsel
                      To improve CDC’s ability to identify and resolve conflicts of interest, MASO
                      should increase its collaboration with the Designated Federal Officials and
                      the HHS Office of the General Counsel. For example, when CDC requests
                      additional information from the Designated Federal Official or the HHS
                      Office of the General Counsel, it could request a written explanation to
                      support their conclusion regarding the conflict.

                      Additionally, CDC should coordinate with both ethics attorneys and program
                      attorneys from the Office of the General Counsel to ensure ethics
                      agreements include language to comply with ethics statutes and regulations,
                      as well as specific language to address particular matters in which SGEs are
                      prohibited from participating.
                      Ensure that special Government employees and CDC employees receive
                      ethics training
                      CDC should ensure that all SGEs receive required initial and annual ethics
                      training and that receipt of the training is documented in the SGEs’ files.
                      To ensure that SGEs receive ethics training as required, CDC should
                      prohibit new SGEs from participating in committee meetings until they
                      submit the training certificates. To facilitate its ability to identify SGEs who
                      have received ethics training, CDC could implement a computer-based
                      training system to automatically generate ethics training certificates and
                      track whether SGEs completed their ethics training.

                      Further, CDC should develop additional training for SGEs on how to submit
                      complete OGE Forms 450. For example, CDC could identify common
                      technical and substantive errors on the OGE Forms 450 and provide
                      training to SGEs in these areas.

                      Finally, CDC should also provide training for MASO reviewers and
                      Designated Federal Officials in reviewing forms for completeness,
                      identifying conflicts of interest, and determining when ethics agreements
                      should be developed.




    OEI-04-07-00260   CDC’S ETHICS PROGRAM   FOR   SPECIAL GOVERNMENT EMPLOYEES   ON   FEDERAL   26
                      ADVISORY COMMITTEES
R   E C O         M M E N D A T             I O N        S

                     Monitor special Government employee compliance with ethics requirements
                     during committee meetings
                     CDC should prohibit SGEs from participating in any committee meetings if
                     they do not have current, certified OGE Forms 450 on file. MASO should
                     notify the Designated Federal Official when an SGE has not submitted an
                     OGE Form 450 by the filing deadline and advise that the SGE is prohibited
                     from participating in committee meetings. When the SGE subsequently
                     submits the form and CDC certifies it, MASO should notify the Designated
                     Federal Official that the SGE is permitted to participate in committee
                     meetings.

                     In addition, CDC should ensure that SGEs comply with the terms of their
                     ethics agreements during committee meetings. To do this, CDC could
                     review ethics agreements and remind each SGE about the matters in which
                     they are prohibited from participating before each meeting. Further, CDC
                     should ensure that the Designated Federal Officials prohibit SGEs from
                     participating in particular matters when their ethics agreements prohibit
                     their participation on such matters. To facilitate their ability to monitor the
                     SGEs’ compliance with ethics agreements, CDC should ensure that, during
                     committee meetings, the Designated Federal Officials have a list of SGEs
                     and the particular matters in which they are prohibited from participating.

                     CDC could also have MASO reviewers attend committee meetings to ensure
                     SGEs’ compliance with ethics requirements during the meetings.
                     Track special Government employee compliance with ethics requirements
                     CDC officials, independent of those who attend the committee meetings,
                     should regularly review meeting minutes to determine whether SGEs
                     complied with ethics requirements. Specifically, CDC officials should track
                     whether SGEs participate in committee meetings without certified
                     OGE Forms 450 on file. Additionally, qualified CDC officials should track
                     whether SGEs with ethics agreements participate in particular matters
                     when their ethics agreements prohibit such participation.

                     Finally, if an SGE does not comply with the criminal conflict-of-interest
                     statute, CDC should notify the SGE and the Designated Federal Official and
                     report the case to the HHS OIG. If an SGE does not comply with the
                     Standards of Ethical Conduct or CDC policy during committee meetings,
                     CDC should notify the SGE and the Designated Federal Official and take
                     appropriate administrative action.




OEI-04-07-00260      CDC’S ETHICS PROGRAM   FOR   SPECIAL GOVERNMENT EMPLOYEES   ON   FEDERAL   27
                     ADVISORY COMMITTEES
 R   E C O        M M E N D A T              I O N         S


                    AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                    RESPONSE
                    CDC concurred with all seven of our recommendations. Since the time of
                    our review, CDC indicated that it has begun or plans to implement
                    improvements that coincide with our recommendations. Specifically, CDC
                    noted that (1) CDC has strengthened its controls to ensure that there are
                    no omissions related to reportable information required by the
                    OGE Form 450; (2) CDC will work with HHS and OGE to develop a
                    means of collecting information on interests (e.g., grants) that are not
                    currently required on the OGE Form 450; (3) CDC has implemented a
                    “Record of Analysis” to document that MASO has performed an analysis
                    of potential conflicts of interest; (4) MASO has established a workgroup,
                    which includes the Designated Federal Officials and the HHS Office of the
                    General Counsel Ethics Division, to raise and/or resolve matters relating
                    to the management of CDC’s committees including issues related to
                    financial disclosure and conflicts of interest; (5) CDC is revising its
                    process to allow SGEs to electronically report their receipt and review of
                    ethics training; (6) CDC will consult with other HHS agencies to
                    determine best practices that could be implemented to enhance its
                    program and improve its process for monitoring SGE compliance with
                    ethics requirements during committee meetings; and (7) MASO will have
                    a greater presence at committee meetings and audit minutes to track SGE
                    compliance with ethics requirements.

                    However, CDC expressed concerns with fully implementing our
                    recommendation to ensure that OGE Forms 450 are complete. That is,
                    CDC indicated that it is impractical to follow up with SGEs to verify
                    interests not found on the OGE Forms 450 if these interests can be found
                    through a comprehensive review of supplementary documents, such as the
                    curricula vitae. CDC indicated that, through this review, it is able to
                    accomplish the primary purpose of financial disclosure, which is to
                    identify and resolve potential conflicts of interest. However, pursuant to
                    Federal regulation, all required information must be documented on the
                    OGE Form 450. Therefore, we recommend that CDC ensure that each
                    required item is disclosed on the OGE Form 450. Accordingly, in
                    assessing OGE Form 450 completeness, CDC should not consider
                    supplemental documents (e.g., the curriculum vitae) to be part of the
                    OGE Form 450. Further, we determined that CDC did not identify and
                    resolve all potential conflicts of interest that we identified based on our
                    review of all the information in the financial disclosure files, including the
                    SGEs’ curricula vitae.



OEI-04-07-00260     CDC’S ETHICS PROGRAM   FOR   SPECIAL GOVERNMENT EMPLOYEES   ON   FEDERAL   28
                    ADVISORY COMMITTEES
R   E C O         M M E N D A T             I O N        S

                     We made technical changes to the report based on CDC’s comments. For
                     the full text of CDC’s comments, see Appendix F.




OEI-04-07-00260      CDC’S ETHICS PROGRAM   FOR   SPECIAL GOVERNMENT EMPLOYEES   ON   FEDERAL   29
                     ADVISORY COMMITTEES
A P   PA EP NP D E I NX D~ IA X ~ A

                    Federal Advisory Committees at the Centers for Disease Control and
                    Prevention, as of December 31, 2007

                    Office of the Director

                    Advisory Committee on Immunization Practices

                    Advisory Committee to the Director, Centers for Disease Control and
                    Prevention (CDC)

                    Coordinating Center for Environmental Health and Injury Prevention
                    Advisory Committee on Childhood Lead Poisoning Prevention

                    Board of Scientific Counselors, National Center for Environmental
                    Health/Agency for Toxic Substances and Disease Registry

                    Board of Scientific Counselors, National Center for Injury Prevention
                    and Control 70
                    Coordinating Center for Health Information and Service

                    Board of Scientific Counselors, National Center for Health Statistics

                    National Committee on Vital and Health Statistics

                    Coordinating Center for Health Promotion

                    Breast and Cervical Cancer Early Detection and Control Advisory
                    Committee

                    Interagency Committee on Smoking and Health

                    Coordinating Center for Infectious Diseases
                    Advisory Council for the Elimination of Tuberculosis

                    Board of Scientific Counselors, Coordinating Center for Infectious
                    Diseases

                    CDC/Health Resources and Services Administration Advisory
                    Committee on Human Immunodeficiency Virus and Sexually
                    Transmitted Disease Prevention and Treatment

                    Clinical Laboratory Improvement Advisory Committee

                    Healthcare Infection Control Practices Advisory Committee


                      70 This committee was previously chartered as the Advisory Committee for Injury
                    Prevention and Control. 73 Fed. Reg. 80412 (Dec. 31, 2008). Available online at
                    http://edocket.access.gpo.gov/2008/E8-31111.htm. Accessed on July 10, 2009.



  OEI-04-07-00260   CDC’S ETHICS PROGRAM   FOR   SPECIAL GOVERNMENT EMPLOYEES   ON   FEDERAL            30
                    ADVISORY COMMITTEES
A   P   P E N D       I X ~    A


                      National Institute for Occupational Safety and Health

                      Advisory Board on Radiation and Worker Health

                      Board of Scientific Counselors, National Institute for Occupational
                      Safety and Health

                      Mine Safety and Health Research Advisory Committee




    OEI-04-07-00260   CDC’S ETHICS PROGRAM   FOR   SPECIAL GOVERNMENT EMPLOYEES   ON   FEDERAL   31
                      ADVISORY COMMITTEES
    A P P E N D I X ~ B



                  DETAILED METHODOLOGY
                  Scope
                  We reviewed financial disclosure files for 246 of 259 special Government
                  employees (SGE) on all 17 Federal advisory committees (committees) to
                  which the Centers for Disease Control and Prevention (CDC) had
                  assigned SGEs. The 246 SGEs were active as of December 31, 2007,
                  (i.e., they were listed on a January 22, 2008, printout from CDC’s
                  committee database and were appointed prior to January 1, 2008).

                  We did not review files for 9 of the 259 SGEs because they were
                  assigned to a committee sponsored jointly by CDC and the Health
                  Resources and Services Administration. These SGEs were technically
                  employed by the Health Resources and Services Administration.

                  We also excluded an additional four SGEs who were appointed in late
                  2007 and had not submitted Confidential Financial Disclosure Reports
                  (Office of Government Ethics (OGE) Forms 450) in 2007. These forms
                  were not due until 2008.
                  Data Sources and Collection
                  We reviewed conflict-of-interest statutes, OGE regulations and
                  guidance documents, and CDC policy regarding SGE ethics
                  requirements. Hereinafter, we refer to conflict-of-interest statutes,
                  OGE regulations, and CDC policy as “ethics requirements.”

                  We collected 2007 data from the following sources:

                   SGE financial disclosure files (i.e., SGEs’ current and prior
                    OGE Forms 450; curricula vitae; official correspondence between
                    CDC and SGEs, Designated Federal Officials, and/or the
                    Department of Health and Human Services (HHS) Office of the
                    General Counsel; ethics agreements; and ethics training
                    certificates);

                   committee meeting minutes; and

                   committee charters.

                  We reviewed financial disclosure files for SGEs, meeting minutes, and
                  committee charters. Once we reviewed all the documents that
                  pertained to one committee, we met with the Management Analysis and
                  Services Office to request all missing documentation for that committee
                  (e.g., OGE Forms 450, ethics training certificates, and meeting
                  minutes).

OEI-04-07-00260   CDC’S ETHICS PROGRAM   FOR   SPECIAL GOVERNMENT EMPLOYEES   ON   FEDERAL   32
                  ADVISORY COMMITTEES
A   P   P E N D       I X ~    B


                      Data Analysis
                      We classified the 246 SGEs as new or incumbent committee members
                      based on their appointment dates. We defined new SGEs as those
                      appointed in 2007 or appointed within the last 30 days of 2006. All
                      other SGEs were incumbents. In 2007, 21 percent (51 of 246) of CDC’s
                      SGEs were new; 79 percent (195 of 246) were incumbents. 71 We
                      accounted for different timeframes for completion of ethics requirements
                      imposed on new and incumbent SGEs.

                      CDC certified OGE Forms 450 for 86 percent (212 of 246) of SGEs in
                      2007. Twenty-four percent (51 of 212) of the SGEs with certified forms
                      were new; 76 percent (161 of 212) were incumbents. 72
                      We reviewed financial disclosure files for 212 SGEs with certified 2007
                      OGE Forms 450 to determine whether their forms were complete after
                      CDC certified them. Then, we identified potential conflicts of interest
                      and determined whether CDC identified all those that we identified.

                      We reviewed financial disclosure files for all 212 SGEs to determine the
                      extent to which CDC created ethics agreements and adequately
                      documented them to resolve potential conflicts of interest that it
                      identified. Further, we determined whether SGEs’ financial disclosure
                      files contained ethics training certificates. Finally, we determined
                      whether SGEs complied with ethics requirements during committee
                      meetings.

                      Complete disclosure of financial information. We determined whether
                      SGEs’ OGE Forms 450 were complete after CDC certified them in 2007.
                      Upon receipt, CDC has 60 days to review OGE Forms 450, and it should
                      certify them shortly thereafter. 73 By December 31, 2007, CDC had
                      received 224 OGE Forms 450 from its 246 SGEs. The 12 forms that
                      CDC did not certify by the end of 2007 were received between June 14
                      and December 31, 2007. Nine of the twelve forms were submitted
                      within the last 60 days of 2007.

                      To determine whether a certified form was complete, we used relevant
                      criteria from OGE’s guide for reviewing OGE Forms 450 (see
                      Appendix C). That is, we determined the extent to which reportable

                        71 OIG analysis of CDC’s 2007 SGE financial disclosure files, 2008.
                        72 Ibid.
                        73 HHS Office of the General Counsel, Ethics Division, Designated Agency Ethics Official
                      (DAEO). “DAEO Supplemental Instruction No. 06-2,” loc. cit.



    OEI-04-07-00260   CDC’S ETHICS PROGRAM   FOR   SPECIAL GOVERNMENT EMPLOYEES   ON   FEDERAL               33
                      ADVISORY COMMITTEES
A   P   P E N D       I X ~    B

                      items were fully described and listed in appropriate sections of the form,
                      according to the OGE Form 450 instructions. We also determined
                      whether relevant items on curricula vitae or the prior OGE Form 450
                      were disclosed on the 2007 certified form. Finally, we reviewed
                      OGE Forms 450 for reviewers’ annotations and determined whether the
                      amendments indicated that the SGEs authorized the changes and
                      contained the reviewers’ initials and the dates of the changes. That is,
                      we determined whether there was evidence that SGEs approved
                      changes made by MASO to the forms (e.g., email correspondence
                      between MASO and the SGE or MASO documentation indicating that a
                      phone conversation had taken place with the SGE regarding the
                      change). We also determined whether the amendment contained the
                      reviewer’s initials and the date of the change.

                      We then counted the number of SGEs with incomplete forms. We also
                      determined how many of those SGEs were new and incumbents.
                      Finally, we determined the number of meetings that SGEs with
                      certified, incomplete OGE Forms 450 attended in 2007. We counted the
                      number of meetings these SGEs attended between the dates CDC
                      certified their 2007 OGE Forms 450 and December 31, 2007.

                      Identification of potential conflicts of interest. To assess CDC’s
                      identification and resolution of conflicts of interest, we reviewed
                      meeting minutes and committee charters to ascertain the scope of the
                      matters generally discussed by each committee. We then reviewed
                      financial disclosure files for SGEs with OGE Forms 450 certified by
                      CDC in 2007 to identify potential conflicts of interest.

                      We reviewed the certified OGE Forms 450 and determined whether
                      CDC identified all potential conflicts of interest that we identified before
                      it certified them. If CDC did not document any contact with the SGE,
                      Designated Federal Official, or HHS Office of the General Counsel
                      regarding interests we identified as potential conflicts, we classified the
                      interests as not identified by CDC.

                      We then counted the number of SGEs with at least one interest that we
                      identified but CDC did not. We also determined how many of those
                      SGEs were new and incumbents. We consulted with the HHS Office of
                      Counsel to the Inspector General to confirm the CDC-unidentified
                      potential conflicts of interest.

                      Finally, we determined the number of meetings attended by SGEs in
                      2007 whose OGE Forms 450 had been certified by CDC even though it

    OEI-04-07-00260   CDC’S ETHICS PROGRAM   FOR   SPECIAL GOVERNMENT EMPLOYEES   ON   FEDERAL   34
                      ADVISORY COMMITTEES
A   P   P E N D       I X ~    B

                      had not identified the potential conflicts of interest. We counted the
                      number of meetings these SGEs attended between the dates CDC
                      certified their 2007 OGE Forms 450 and December 31, 2007.

                      Resolution of potential conflicts of interest. We determined the extent to
                      which CDC resolved potential conflicts of interest that it identified
                      before certifying OGE Forms 450. If the documentation in an SGE’s file
                      did not support CDC’s conclusion regarding a conflict of interest or if the
                      SGE’s waiver was inadequately documented, we classified the SGE as
                      having an unresolved potential conflict of interest.

                      If CDC did not create an ethics agreement for an interest that it
                      identified, we determined whether the documentation in the SGE’s file
                      supported CDC’s conclusion that an ethics agreement was unnecessary.
                      For example, CDC documented advice from Designated Federal Officials
                      to support its determination that a conflict of interest did not exist. In
                      some cases, the documented advice contained only a statement by the
                      Designated Federal Official indicating that he or she did not see a
                      conflict of interest, but the Designated Federal Official did not provide
                      any facts or analysis to support this conclusion. In these cases, we
                      determined that the conclusory statement alone was not sufficient to
                      outweigh other facts in the file suggesting that a potential conflict of
                      interest existed. Additionally, if documented advice was based on an
                      inaccurate interpretation of ethics requirements, we determined that
                      the potential conflict of interest was not resolved.

                      If CDC did create an ethics agreement to resolve an SGE’s conflict of
                      interest, we determined whether it was adequately documented. We
                      classified 18 U.S.C. 208 § (b)(3) waivers (i.e., waivers) as adequately
                      documented if they specified (1) the item(s) that posed the conflict(s) of
                      interest, (2) any general matters in which the SGE was permitted to
                      participate in committee meetings, and (3) particular matters in which
                      the SGE was prohibited from participating. In addition, we determined
                      whether SGEs signed and dated their waivers.

                      We then counted the number of SGEs with at least one unresolved
                      conflict of interest. We did not consider potential conflicts of interest
                      that CDC did not identify in our count of unresolved potential conflicts
                      of interest. We also determined how many of those SGEs were new and
                      incumbents. We consulted with the HHS Office of Counsel to the
                      Inspector General to confirm that the SGEs had at least one unresolved
                      potential conflict of interest.


    OEI-04-07-00260   CDC’S ETHICS PROGRAM   FOR   SPECIAL GOVERNMENT EMPLOYEES   ON   FEDERAL   35
                      ADVISORY COMMITTEES
A   P   P E N D    I X ~     B


                  Finally, we determined the number of meetings attended by SGEs in
                  2007 whose OGE Forms 450 had been certified by CDC even though it
                  had not resolved the potential conflicts of interest that it had identified.
                  We counted the number of meetings these SGEs attended between the
                  dates CDC certified their 2007 OGE Forms 450 and December 31, 2007.

                  Documentation of ethics training. We determined whether CDC ensured
                  that SGEs’ financial disclosure files contained ethics training
                  certificates to document that SGEs received ethics training within
                  required timeframes. For SGEs with training certificates in their files,
                  we determined whether they were signed by new SGEs within 90 days
                  of their appointment and by incumbents at any time within the 2007
                  calendar year.

                  We then counted the number of SGEs who did not have signed
                  certificates on file within the required timeframes. For new SGEs, we
                  also calculated the average and range in the number of days late they
                  signed their ethics training certificates.
                  One new SGE was appointed less than 90 days prior to the end of 2007
                  and did not have a training certificate on file. We did not include this
                  SGE in our count of SGEs without training certificates on file because
                  the training certificate was not yet due.

                  Finally, we determined the number of meetings that new SGEs without
                  training certificates on file attended in 2007. We counted the number of
                  meetings these SGEs attended between the dates their training
                  certificates were due and the dates they signed their training
                  certificates or December 31, 2007. We then calculated the average and
                  range of meetings that these SGEs attended in 2007.

                  Compliance with ethics requirements during committee meetings. We
                  reviewed meeting minutes to identify SGEs who attended the meetings,
                  the dates of the meetings, and the particular matters in which SGEs
                  voted.

                  First, we determined whether SGEs participated in committee meetings
                  without current OGE Forms 450 on file. To do so, we determined
                  whether SGEs submitted their forms within required timeframes in
                  2007. That is, we determined the extent to which new SGEs submitted
                  their forms within 30 days of their appointment and incumbent SGEs
                  submitted their forms within 1 year of their prior filing.




OEI-04-07-00260   CDC’S ETHICS PROGRAM   FOR   SPECIAL GOVERNMENT EMPLOYEES   ON   FEDERAL   36
                  ADVISORY COMMITTEES
A   P   P E N D    I X ~     B


                  For new SGEs, we determined each SGE’s appointment date based on
                  the SGEs’ official appointment records. We then compared this date to
                  the SGE’s 2007 OGE Form 450 submission date to determine whether
                  the SGE submitted the form within the required 30 days. For
                  incumbent SGEs, we determined whether SGEs submitted the 2007
                  OGE Forms 450 within 1 year of the dates CDC received their prior
                  OGE Forms 450. Eight SGEs each submitted two OGE Forms 450 in
                  2007. In these cases, we reviewed the most recently submitted
                  OGE Forms 450 in 2007 that CDC had certified by the time of our
                  review (i.e., spring 2008). For these SGEs, we used the prior 2007 OGE
                  Forms 450 to serve as the prior forms.
                  One SGE submitted an illegible OGE Form 450 in 2007. CDC did not
                  accept this form as a valid submission, so we classified this SGE as not
                  submitting a form in 2007.

                  We then determined whether SGEs participated in committee meetings
                  before submitting their current OGE Forms 450. For new SGEs, we
                  determined whether they participated in committee meetings after their
                  appointment dates and before submitting their OGE Forms 450. For
                  incumbents, we determined whether they participated in committee
                  meetings after the forms were due and before they submitted the forms.

                  Second, we determined whether SGEs participated in committee
                  meetings before CDC certified their current OGE Forms 450. That is,
                  we determined whether SGEs participated in committee meetings after
                  submitting their current forms and before CDC certified them.

                  Then, we determined the number of meetings that SGEs without
                  current, certified forms on file attended in 2007. We also calculated the
                  average and range of meetings that these SGEs attended in 2007.

                  Finally, we determined whether SGEs complied with the terms of their
                  waivers. To do so, we compared the subjects of SGEs’ votes with the
                  particular matters in which they were prohibited from participating,
                  according to their waivers. We reviewed meeting minutes to identify
                  particular matters in which SGEs voted. We compared the subjects of
                  these votes with the particular matters in which the SGEs were
                  prohibited from participating, as outlined in the SGEs’ waivers. We
                  counted the number of SGEs who voted on particular matters even
                  though the terms of their waivers prohibited such participation.




OEI-04-07-00260   CDC’S ETHICS PROGRAM   FOR   SPECIAL GOVERNMENT EMPLOYEES   ON   FEDERAL   37
                  ADVISORY COMMITTEES
    A P P E N D I X ~ C

                      Office of Government Ethics Guidance for Determining Whether 2007
                      Confidential Financial Disclosure Reports Are Complete 74

                      To determine whether Confidential Financial Disclosure Reports
                      (OGE Forms 450) were complete, we used the following criteria from the
                      Office of Government Ethics (OGE) guidance and instructions on the
                      OGE Form 450. 75
                      For Part I – Assets and Income
                       Was specific employer listed?

                         Were specific names of sector-specific mutual funds listed?

                         Were specific names of publicly traded stock disclosed?

                         Was type of income indicated (i.e., stock)?

                         For honoraria, were dates shown (month and year that services were
                          provided)?
                         If sources of income are from outside employment, have they been
                          described in Part III - Outside Positions?

                      For Part II - Liabilities
                       Is the name and location (city and State) for all reportable creditors
                        indicated?
                         Is the type of liability (debt) shown, such as promissory note,
                          mortgage, or loan?
                         For mortgages, are there corresponding rental properties reported in
                          Part I?

                      For Part III - Outside Positions
                       Are name and location (city and State) for the organization indicated?

                         Is the organization’s purpose or function stated?

                         Has the filer indicated the specific position held or nature of activity
                          with the organization?



                          74 OGE, “OGE Form 450: A Review Guide,” op. cit., beginning on p. 30.
                          75 The OGE guidance was issued in 1996. Because of changes to the OGE Form 450 in
                      January 2007, we excluded some of OGE’s original criteria, which no longer apply. An
                      attorney from the Office of Counsel to the Inspector General confirmed that the criteria
                      listed in this Appendix reflect the current review requirements for the January 2007 OGE
                      Form 450.



    OEI-04-07-00260   CDC’S ETHICS PROGRAM   FOR   SPECIAL GOVERNMENT EMPLOYEES   ON   FEDERAL                38
                      ADVISORY COMMITTEES
A   P   P E N D    I X ~     C


                     For positions that would ordinarily produce reportable earned
                      income, such as an employee, consultant, or director, check to see
                      that an entry is shown in Part I - Assets and Income.

                  For Part IV - Agreements and Arrangements
                   Are the basic elements of the agreement or arrangement stated, such
                    as employment terms, effective dates, etc.?
                     Are the parties identified, with location (city and State)?

                     Is a date (month and year) for the agreement or arrangement shown?

                     If the agreement or arrangement is for a pension or for other
                      payments due from a former or current employer, is that asset or
                      source of income reported in Part I - Assets and Income?




OEI-04-07-00260   CDC’S ETHICS PROGRAM   FOR   SPECIAL GOVERNMENT EMPLOYEES   ON   FEDERAL   39
                  ADVISORY COMMITTEES
    A P P E N D I X ~ D



Details Regarding Number and Percentage of Certified 2007 Confidential Financial
Disclosure Reports That Were Incomplete, by Type of Omission
                                                                              Number of                   Percentage of
Type of Omission                                                         Certified Forms                 Certified Forms
Disclosure not made according to form’s instructions                   190                         90%
   Items were not fully described (e.g., full name, location, or                      120                           57%
   type of position was not listed in Part III - Outside Positions)
   Items were not listed in all appropriate sections (e.g.,                                  170                    80%
   income-earning positions in Part III – Outside Positions
   were not listed as sources of income in Part I – Income)
Relevant items on other documents not on form                          167                         79%
   Relevant item was on curriculum vitae                                                 123                        58%
   Relevant item was on prior form                                                       103                        49%
Improper amendments to form                                            34                          16%
   Special Government employee’s (SGE) authorization of
   change was not documented                                                              34                        16%
   Reviewer did not initial the change                                                    11                         5%
   Reviewer did not date the change                                                       11                         5%
   Total*                                                                                205                        97%
Source: Office of Inspector General review of the Centers for Disease Control and Prevention’s 2007 SGE financial
disclosure files, 2008.
* Numbers in columns do not sum to total because some forms contained multiple types of omissions.




    OEI-04-07-00260        CDC’S ETHICS PROGRAM    FOR   SPECIAL GOVERNMENT EMPLOYEES   ON   FEDERAL                  40
                           ADVISORY COMMITTEES
     A P P E N D I X ~ E


                         This table provides the number and percentage of special Government
                         employees (SGE) who had vulnerabilities in their files and who
                         participated in committee meetings in 2007, by type of vulnerability and
                         average and range in meeting participation.

Average and Range in Committee Meetings in Which Special Government Employees
Participated in 2007 After Their Forms Were Certified, by Type of Vulnerability in Their Files
                                                                                                Average         Range in
                                                      Number of     Percentage of               Meeting          Meeting
Type of Vulnerability                                    SGEs               SGEs           Participation    Participation
File contained potential conflicts of
interest that the Centers for Disease
                                                             124               58%                    2                  1-16
Control and Prevention (CDC) did not
identify
File contained potential conflicts of
                                                              67               32%                    2                  1-14
interest that CDC did not resolve
  Total*                                                     136              64 %                    2                  1-16
Source: Office of Inspector General review of CDC’s 2007 SGE financial disclosure files and committee meeting minutes,
2008.
* Numbers in columns do not sum to total because some forms contained multiple types of omissions.




 OEI-04-07-00260         CDC’S ETHICS PROGRAM   FOR   SPECIAL GOVERNMENT EMPLOYEES   ON   FEDERAL                   41
                         ADVISORY COMMITTEES
    A P P E N D I X ~ F

                                    AGENCY COMMENTS




    OEI-04-07-00260   CDC’S ETHICS PROGRAM   FOR   SPECIAL GOVERNMENT EMPLOYEES   ON   FEDERAL   42
                      ADVISORY COMMITTEES
A P P E N D           I X ~ F




    OEI-04-07-00260      CDC’S ETHICS PROGRAM   FOR   SPECIAL GOVERNMENT EMPLOYEES   ON   FEDERAL   43
                         ADVISORY COMMITTEES
A P P E N D           I X ~ F




    OEI-04-07-00260      CDC’S ETHICS PROGRAM   FOR   SPECIAL GOVERNMENT EMPLOYEES   ON   FEDERAL   44
                         ADVISORY COMMITTEES
A P P E N D I X ~ F

 A P P E N D          I X ~ F




    OEI-04-07-00260    CDC’S ETHICS PROGRAM   FOR   SPECIAL GOVERNMENT EMPLOYEES   ON   FEDERAL   45
                       ADVISORY COMMITTEES
A   P   PEN           0     x       F




               Page 5 - Page 4 - Daniel R. Levinson


              It is critical to note that MASO ensures that all new SGEs receive initial Ethics Training upon
              appointment, and distributes Annual Ethics Training to all SGEs as required. In addition, MASO
              attends certain advisory committee meetings to provide ethics training. Additionally, MASO
              employees who work with advisory committees are provided ongoing instruction and coaching
              on ethics requirements; DFOs are provided the same materials that are sent to SGEs for Annual
              Ethi.cs training.

              Office ofInspectol' General (DIG) Recommendation: Monitor special GovclUmcnt employee
              compliance witheLhics requirements during committee meetings.
              CDC Response: CDC concurs \vlth this recommendation. MASO collaborates with DFOs and
              HHS Ethics advisors to detemline when SGEs should not participate in certain matters. As 

              subject maILer experts for their respective advisory committees, the DFOs are actively engaged 

              from the onset in helping to identify real and apparent conflicts ofinterest and to recommend 

              ways to resolve the conflict (disqualification, recusal, divestiture, 18 U.S.C. § 208(b)(3) waiver, 

              authorization under 5 C.F.R. § 2635.S02(a)). CDC wiII continue to seek methods for 

              improvement, by consulting with other HHS agencies to detennine best practices that could be 

              implemented to enhance our program. 


              Office ofInspector General (DIG) Recommendation: Track special Government employee
              compliance with ethics requirements.
              CDC Response: CDC concurs with this recommendation. Recognizing the role that DFOs hold
              in this process, MASO also acIalowledges its oversighirespollsibility for SGEs compliance \vith
              financial disclosure and ethics requiremcnts. MASO continues to collaborate with internal
             partners (DFOs, OGC Ethics) involved in the confidential financial disclosure process to track
             and document SGEs compliance with ethics requirements. MASO will have a greater presence
             at advisory committee meetings, audit meeting minutes, and continually seek methods to
             improve and enforce of CDC's Financial Disclosure policy for SOEs.
             CDC Summary Comments to DIG Findings:
             In summary, CDC concurs with the recommendations of the OIG report. Over the past (wo
             years, CDC has implemented measures that coincide with these recommendations. Regarding
             OIG findings, CDC's technical comments on the draft report, previously submitted, are also
             attached. We appreciate your consideration of the comments contained in this memo ancl the
             technical comments as you develop the final report. We are happy to discuss any ofthese
             comments with you. Please direct any questions regarding these comments to Mr. Shaun Ratliff
             by telephone at (404) 639-2809 or by email at iggao@cdc.gov.


                                                                         /S/
                                                            Thomas R. FJied"~n, M.D., M.P.H.




    OEI·04·07·00260        CDC's ETHICS PROGRAM FOR SPECIAL GOVERNMENT EMPLOYEES ON FEDERAL                           46
                           ADVISORY COMMITTEES
 A A C P K P N E ON WD LI
                                EX D~ G
                                       E M E N T S



                      This report was prepared under the direction of Dwayne Grant,
                      Regional Inspector General for Evaluation and Inspections in the
                      Atlanta regional office.

                      Jaime Durley served as the team leader for this study, and Leila Samy
                      served as lead analyst. Other principal Office of Evaluation and
                      Inspections staff who contributed to this report include Starr Daniell, Al
                      Olson, Shaun Owens, Gerius Patterson, and Mina Zadeh from the
                      Atlanta regional office and Robert A. Vito from the Philadelphia
                      regional office; central office staff who contributed include Talisha
                      Searcy. We would also like to acknowledge the contributions of Melinda
                      Golub and Pamela Langer from the Office of Inspector General’s Office
                      of Counsel to the Inspector General.




    OEI-04-07-00260   CDC’S ETHICS PROGRAM   FOR   SPECIAL GOVERNMENT EMPLOYEES   ON   FEDERAL   47
                      ADVISORY COMMITTEES
